March 30, 2001

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT:	 Audit Report - Postal Inspection Service International Travel and
          Assignments (Report Number OV-AR-01-001)

This report presents the results of our audit of Postal Inspection Service international
travel and assignments (Project Number 00JA012OV000). Our objectives were to
determine whether international travel was properly approved, and costs were
reasonable, and international travel and assignments were in the best interest of the
Postal Service. This audit was included in our fiscal year (FY) 2001 audit workload
plan.

The audit disclosed that the Inspection Service’s international travel practices could be
improved. Specifically, the Inspection Service could not provide documentation to show
that international travel requests were properly approved and justified. This report
provided a recommendation to establish additional controls to ensure that international
travel requests are reviewed and documented as required prior to the start of travel.
Management agreed to implement this recommendation. Although international travel
requests could be improved, the audit disclosed that international assignments were in
the best interest of the Postal Service. Management provided comments to the report
and agreed with our conclusions and recommendation. Management’s comments, in
their entirety, are included in Appendix B of this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, please contact Cathleen A. Berrick, director, Oversight, at
(703) 248-4543, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Oversight and Business Evaluations

Attachment

cc: 	James K. Belz
     John R. Gunnels
Postal Inspection Service International                         OV-AR-01-001
 Travel and Assignments


                                          TABLE OF CONTENTS 


    Executive Summary
                                              i

    Part I 


    Introduction 
                                                  1

    Background                                                      1
    Objectives, Scope, and Methodology                              3

    Prior Audit Coverage                                            4


    Part II 


    Audit Results                                                   6


    Travel Approval and Documentation                               6

    Recommendation                                                  7
    Management’s Comments                                           7

    Evaluation of Management’s Comments                             7


    Lodging and Transportation Expenses                             8


    International Assignments                                       9


    Appendix A. Statistical Sampling Plan                           10 

    Appendix B. Management’s Comments                               15 

Postal Inspection Service International                                             OV-AR-01-001
 Travel and Assignments


                                      EXECUTIVE SUMMARY
Introduction 	               This report presents the results of our audit of Postal Inspection
                             Service international travel and assignments. Our objectives
                             were to determine whether (1) travel was approved by the
                             appropriate official and travel requests contained required
                             supporting documentation, (2) lodging expenses were
                             reasonable based on Department of State guidelines and
                             business-class transportation was appropriately used, and
                             (3) overseas assignments were necessary to support the
                             Inspection Service mission and provided a direct benefit to the
                             Postal Service. This audit was included in our fiscal year
                             (FY) 2001 audit workload plan.

Results in Brief 	           The Inspection Service’s international travel practices could be
                             improved. Specifically, the Inspection Service could not provide
                             documentation to show that all international travel was properly
                             approved and justified as required by Postal Service and
                             Inspection Service policy. This occurred because management
                             controls were not effective in ensuring that investigative
                             international travel was approved by the appropriate official and
                             non-investigative international travel was supported by required
                             documentation. Inspection Service officials advised us that
                             international travel was reviewed and approved, even though
                             they did not document those reviews. However, without
                             documentation of these reviews, there is an increased risk that
                             some international travel may not have been reviewed to ensure
                             that it was cost-effective and provided a benefit to the Postal
                             Service.

                             Although the Inspection Service’s international travel approval
                             and justification practices could be improved, we found that
                             international lodging expenses were generally reasonable, and
                             business-class transportation was appropriately used. In
                             addition, we found that international assignments of postal
                             inspectors supported the Inspection Service’s mission and
                             provided a direct benefit to the Postal Service. Specifically, all
                             three international assignments supported criminal investigative
                             activity impacting the United States mail. Further, these
                             positions strengthened and supported Inspection Service
                             relationships throughout the international law enforcement
                             community.




                                                 i
Postal Inspection Service International                                             OV-AR-01-001
 Travel and Assignments




Summary of 	                 We recommend that the chief postal inspector establish
Recommendation 	             additional controls to ensure that non-investigative international
                             travel requests include required justifications and that these
                             justifications are reviewed and considered prior to the start of
                             travel.

Summary of                   Management agreed with the findings and recommendation,
Management’s                 and stated they would modify the Country Clearance log by
Comments                     April 2, 2001, to ensure that travel requests are documented
                             and considered. Management’s comments, in their entirety, are
                             included in Appendix B of this report.

Overall Evaluation           Management’s comments are responsive to our findings and
of Management’s              recommendation and the planned action will address the issues
Comments                     discussed in the report.




                                                 ii
Postal Inspection Service International                                                                   OV-AR-01-001
 Travel and Assignments



                                                 INTRODUCTION
Background 	                     An estimated 150 Inspection Service vouchers were filed for
                                 international travel during fiscal year (FY) 1999 at a cost of
                                 approximately $308,740.1 An estimated 34 percent of this travel
                                 was for investigative purposes, while the remaining 66 percent
                                 was for non-investigative purposes. Investigative travel is travel
                                 directly associated with a criminal investigation. Non-
                                 investigative travel includes travel associated with international
                                 training seminars, meetings, conferences, and other events not
                                 related to an investigation.

                                Postal Service F-15 Handbook, Travel and Relocation,
                                August 1997, and updated in September 2000, establishes
                                travel policy for Postal Service employees. The handbook
                                requires that Postal Service International Business Unit officials
                                approve all Inspection Service international travel, except official
                                investigative travel and non-investigative travel to Canada and
                                Mexico. The handbook further requires that the International
                                Business Unit ensure that necessary travel documentation is
                                prepared.2 In March 2000, the chief operating officer and
                                executive vice president delegated approval authority for
                                Inspection Service non-investigative international travel to the
                                chief postal inspector.

                                 The Inspection Service Manual, Chapter 172.4 “International
                                 Travel,” June 21, 2000, requires that travel requests for non-
                                 investigative travel be submitted to the Inspection Service’s
                                 International Security Group for processing prior to departure.
                                 Travel requests for investigative travel, in the form of a letter,
                                 investigative memorandum, or electronic message, as well as
                                 non-investigative travel to Canada or Mexico, can be approved
                                 by a deputy chief inspector.




1
  We could not identify the total number of individuals traveling internationally or the total cost incurred because the
international travel account includes other costs associated with international travel, such as costs related to
overseas assignments and international investigative expenses. As a result, we estimated the total number of
individuals traveling internationally and the total cost incurred. See Appendix A for detailed information related to the
projection.
2
  Travel documentation must include information supporting the initiation of the travel, including an invitation or
announcement, a statement of justification, the expected benefit to the Postal Service, estimated cost, and a travel
schedule.




                                                            1
Postal Inspection Service International                                                             OV-AR-01-001
 Travel and Assignments



                               In addition to international travel, the Inspection Service
                               assigned three postal inspectors to overseas positions to assist
                               other countries and the United States (U.S.) military in
                               maintaining the integrity of U.S. mail throughout the world.
                               Inspector assignments include:

                                    •	 Manager, Message Research and Response
                                       Department, Directorate for Criminal Intelligence,
                                       General Secretariat of the International Criminal Police
                                       Organization (INTERPOL).

                                    •	 Security specialist, International Bureau of the Universal
                                       Postal Union.

                                    •	 Projects coordinator, U.S. Army, Europe, and Seventh
                                       Army.3

                               Postal inspectors assigned overseas are periodically rotated
                               and replaced by other inspectors. The Inspection Service pays
                               salaries, relocation, and associated living expenses for all three
                               of the inspectors assigned internationally. In addition, the
                               International Bureau of the Universal Postal Union pays a
                               subsistence allowance to the assigned inspector.

                               A letter of appointment by the director general, International
                               Bureau of the Universal Postal Union, March 1998, identifies
                               position requirements and responsibilities for postal inspectors
                               assigned to the International Bureau of the Universal Postal
                               Union. A June 8, 1998, Memorandum of Understanding
                               between the Inspection Service and the U.S. Army Criminal
                               Investigation Command, U.S. Army, Europe, and Seventh
                               Army, identifies position duties and requirements for postal
                               inspectors assigned to the U.S. Army, Europe, and Seventh
                               Army. INTERPOL officials identified that a position justification
                               identifying inspector duties and responsibilities was prepared in
                               the late 1980s, but could not provide a copy.




3
  Postal inspectors assigned to INTERPOL and the International Bureau of the Universal Postal Union report directly
to the heads of these organizations. The postal inspector assigned to U.S. Army, Europe, and Seventh Army, reports
to the inspector in charge, New York Metro Division, Inspection Service.




                                                         2
Postal Inspection Service International                                                               OV-AR-01-001
 Travel and Assignments


Objectives, Scope,               Our objectives were to determine whether (1) travel was
and Methodology                  approved by the appropriate official and travel requests
                                 contained required supporting documentation, (2) lodging
                                 expenses were reasonable based on Department of State
                                 guidelines and business-class transportation was appropriately
                                 used, and (3) overseas assignments were necessary to support
                                 the Inspection Service mission and provided a direct benefit to
                                 the Postal Service.

                                 To determine whether travel was approved as required, travel
                                 requests contained required supporting documentation, lodging
                                 expenses were reasonable, and business-class transportation
                                 was appropriately used, we randomly selected and reviewed,
                                 using a cluster sample design, 178 vouchers in the Inspection
                                 Service’s Accounts Payable and Reporting System for travel
                                 completed between September 13, 1997, and June 2, 2000.
                                 We further obtained and reviewed the F-15 Travel and
                                 Relocation Handbook, the Inspection Service Manual,
                                 Department of State Standardized Regulations, and
                                 documentation supporting travel requests. We also interviewed
                                 officials from the Inspection Service International Security
                                 Group, Postal Service International Business Unit, and Postal
                                 Service Corporate Accounting Office concerning Inspection
                                 Service international travel practices. See Appendix A for
                                 details of the sampling plan.

                                 To determine whether overseas assignments were necessary to
                                 support the Inspection Service’s mission and provided a direct
                                 benefit to the Postal Service, we obtained and reviewed
                                 associated criteria, Inspection Service domicile reviews, position
                                 vacancy announcements, work accomplishment narratives, and
                                 related correspondence. We interviewed officials from the
                                 Inspection Service International Security Group and New York
                                 Metro Division, as well as postal inspectors assigned to the
                                 General Secretariat, INTERPOL, and the International Bureau
                                 of the Universal Postal Union regarding position requirements
                                 and Postal Service benefits.4 We also interviewed the director
                                 of criminal investigations, General Secretariat, INTERPOL;
                                 director general, International Bureau of the Universal Postal




4
    The postal inspector assigned to the U.S. Army, Europe, and Seventh Army, was not available to be interviewed.




                                                           3
Postal Inspection Service International                                             OV-AR-01-001
 Travel and Assignments



                             Union; and director, Special Investigations and Fraud,
                             Mannheim, Germany, Field Office, U.S. Army Criminal
                             Investigation Command, concerning organizational missions
                             and inspector support.

                             We conducted the audit from September 2000 through
                             March 2001 in accordance with generally accepted government
                             auditing standards. We reviewed management controls over
                             Inspection Service international travel practices and overseas
                             assignments as they related to the audit objectives. We
                             assessed the reliability of computer-generated data gathered
                             and determined that it was sufficient to support audit
                             conclusions. We discussed our conclusions and observations
                             with appropriate management officials and included their
                             comments where appropriate.

Prior Audit                  Three prior reports identified issues related to Postal Service
Coverage                     international travel. Although these reviews did not address the
                             Inspection Service’s international travel practices, similar issues
                             were identified.

                             The September 1999 OIG Review of International Travel
                             Process, report number RG-MA-99-007, identified that 98
                             percent of Postal Service international travel requests submitted
                             to the Postal Service International Business Unit were
                             incomplete. For example, 94 percent of travel requests did not
                             include supporting documentation that initiated the trip and
                             88 percent of travel requests did not include estimated travel
                             costs. As a result, officials approved international travel without
                             complete information regarding the cost-effectiveness of the
                             travel or the relationship of the travel to Postal Service
                             business. The OIG suggested, and management agreed, that
                             the International Business Unit ensure that international travel
                             requests include all required supporting information.

                             The February 2000 OIG Review of International Travel Process
                             – Phase II, report number RG-LA-00-001, identified that lodging
                             expenses appeared reasonable for the international travel
                             vouchers reviewed. Specifically, lodging expenses for travel
                             vouchers reviewed were only 9 percent higher than international
                             lodging rates established by the Department of State. The
                             Postal Service did not set expense limits for international
                             lodging, but encouraged Postal Service employees to prudently
                             plan travel. The report contained no suggestions.




                                                 4
Postal Inspection Service International                                           OV-AR-01-001
 Travel and Assignments



                             The March 1998 Postal Service International Business Unit
                             Study of Business Practices, identified that employees
                             circumvented business-class transportation requirements and
                             did not submit travel vouchers within required time frames. The
                             review further identified that international travel vouchers were
                             not properly reviewed. The Postal Service recommended that
                             employees adhere to the ten-hour rule regarding business-class
                             transportation and ensure that excessive travel costs are not
                             incurred.




                                                5
Postal Inspection Service International                                               OV-AR-01-001
 Travel and Assignments


                                          AUDIT RESULTS
Travel Approval and          The Inspection Service could not provide evidence that all
Documentation                international travel was properly approved and justified.
                             Specifically, the Inspection Service did not maintain
                             documentation identifying that all investigative travel was
                             approved by a deputy chief inspector, as required. Approval
                             documentation did not exist for 37 of the 54 trips reviewed, or a
                             projected 112 trips conducted from September 13, 1997,
                             through June 2, 2000.

                             Also, requests for non-investigative travel did not contain all
                             required supporting documentation, including the travel
                             justification, benefit to the Postal Service, and estimated cost.
                             All required supporting documentation did not exist for 83 of the
                             89 non-investigative trips reviewed, or projected 252 trips
                             conducted from FY 1998 through FY 2000. Justifications did
                             not exist for 46 of the 89 trips reviewed, and expected benefits
                             to the Postal Service did not exist for 47 of the 89 trips
                             reviewed.

                             Management controls were not effective in ensuring that all
                             investigative travel was approved by a deputy chief inspector,
                             as required, prior to travel initiation. The Inspection Service
                             recently developed a tracking system; the Request for Country
                             Clearance Log, to help ensure that international travelers
                             receive required country clearances. The Country Clearance
                             Log was established in January 2001, and identifies the date
                             the travel was approved, the approving official, and other
                             incidental travel information. The Country Clearance Log
                             should help ensure that future requests for international travel
                             are approved by the appropriate official prior to travel initiation.

                             In addition, management controls, such as a log summarizing
                             required supporting information, were not effective in ensuring
                             that Inspection Service officials obtained and reviewed all
                             required supporting documentation justifying non-investigative
                             travel. Although the Country Clearance Log will help ensure
                             that international travel is appropriately approved, it will not help
                             ensure that critical travel information, including the travel
                             justification and benefit to the Postal Service, is collected and




                                                  6
Postal Inspection Service International                                             OV-AR-01-001
 Travel and Assignments



                             reviewed prior to travel initiation. We believe that modifying the
                             Country Clearance Log to include all required supporting
                             information will help ensure that critical travel information is
                             obtained and considered prior to travel approval.

                             Inspection Service officials advised us that international travel
                             was reviewed and approved, even though they did not
                             document those reviews. However, without documentation of
                             these reviews, there is an increased risk that Inspection Service
                             international travel may not have been necessary or benefited
                             the Postal Service. More specifically, designated officials may
                             not have fully assessed the need for international travel prior to
                             travel initiation.

Recommendation               We recommend the chief postal inspector establish additional
                             controls, such as modifying the Request for Country Clearance
                             Log, to ensure that non-investigative travel requests are
                             documented and considered prior to travel initiation. These
                             travel requests should include travel justifications, expected
                             benefit to the Postal Service, cost estimates, an invitation or
                             announcement, and a travel schedule.

Management’s                 Management agreed with the findings and recommendation,
Comments                     and stated that the Inspection Service will modify the Country
                             Clearance log by April 2, 2001, to ensure that written
                             documentation is prepared consistent with the recommendation.
                             Management further identified that the Inspection Service
                             established the Country Clearance log in January 2001 to track
                             all investigative and non-investigative travel.

Evaluation of                Management’s comments are responsive to our findings and
Management’s                 recommendation. The modification of the Country Clearance
Comments                     log should help ensure that non-investigative travel requests are
                             fully documented and considered prior to travel initiation.




                                                 7
Postal Inspection Service International                                                             OV-AR-01-001
 Travel and Assignments




Lodging and                    Although the Inspection Service’s international travel practices
Transportation                 could be improved, we found that international lodging and
Expenses                       business-class transportation expenses were generally
                               reasonable. Specifically, we determined that 106 of
                               120 vouchers, or a projected 322 of 434 trips conducted from
                               FY 1998 through June 2, 2000, contained expenses that were
                               consistent with lodging rates established by the Department of
                               State. The Department of State Standardized Regulations,
                               updated monthly, establishes international lodging rates for
                               federal agencies. The remaining 14 vouchers reviewed
                               contained lodging expenses that did not materially exceed
                               Department of State guidelines.

                               In addition, Inspection Service personnel generally utilized
                               business-class transportation appropriately when traveling
                               internationally. Specifically, we identified that only 10 of the
                               143 travel vouchers reviewed, or an estimated 30 of 434 travel
                               vouchers, contained evidence of business-class air
                               transportation. Although the F-15 Handbook allows business-
                               class air travel for international travel exceeding ten hours for
                               Postal Service employees, the Inspection Service Manual
                               prohibits Inspection Service personnel from using business-
                               class air travel at Postal Service expense. The ten instances
                               identified where business-class transportation was used did not
                               materially impact international travel costs. Specifically, taken
                               together, these trips exceeded the cost of coach-class travel by
                               approximately $25,000.5




5
  FY 2001 airfares were used to compute the difference in travel costs between coach and business-class
international travel.




                                                        8
Postal Inspection Service International                                            OV-AR-01-001
 Travel and Assignments




International                Postal inspector international assignments were necessary to
Assignments                  support the Inspection Service mission and provided a direct
                             benefit to the Postal Service. These positions further
                             strengthened and supported Inspection Service relationships
                             throughout the international law enforcement community.
                             Specifically, all three international assignments supported
                             criminal investigative activity impacting the U.S. mail. Also, the
                             inspectors’ supervisors and the Inspection Service position
                             reviews identified that the positions provided a direct benefit to
                             the Postal Service. The inspector assigned to the General
                             Secretariat of INTERPOL maintained a worldwide crime-
                             reporting database that gave the Inspection Service valuable
                             insight into ongoing criminal activity involving postal operations
                             in member nations. The inspector assigned to the International
                             Bureau of the Universal Postal Union provided professional
                             advice and assistance to member countries on postal security
                             matters. The inspector assigned to the U.S. Army, Europe, and
                             Seventh Army, investigated criminal activity affecting the Postal
                             Service and military mail in Europe.

                             In addition, inspectors in international assignments performed
                             the duties for which the positions were created. Specifically,
                             inspectors assigned to the International Bureau of the Universal
                             Postal Union and the U.S. Army, Europe, and Seventh Army,
                             performed the duties specified in the agreements with their
                             sponsoring organizations. Although there was no agreement
                             available for the INTERPOL position, INTERPOL officials and
                             supporting documentation identified that the inspector was
                             performing duties required of the position.




                                                 9
Postal Inspection Service International                                                                OV-AR-01-001
 Travel and Assignments


                    APPENDIX A. STATISTICAL SAMPLING PLAN
    STATISTICAL SAMPLING FOR INSPECTION SERVICE INTERNATIONAL TRAVEL

                            VOUCHER REVIEWS

PURPOSE OF THE SAMPLING

One of the objectives of this audit was to assess the Inspection Service’s compliance
with Postal Service policy regarding international travel and to determine the accuracy
of the amount of the international travel vouchers. In support of this objective, the audit
team employed a cluster attribute sample design that allowed statistical projection of
several voucher attributes and variables.

DEFINITION OF THE AUDIT UNIVERSE

The universe consisted of Inspection Service international travel vouchers having travel
occurring within the audit scope: September 13,1997 through June 2, 2000.6 The
universe data was provided by a Computer Assisted Assessment Techniques team
search of the Postal Service’s Accounts Payable and Reporting System, using the date
of the check that paid the voucher. The vouchers are stored in “batches” at several
locations. The original database search provided a listing of 578 vouchers spread
among 223 batches.

SAMPLE DESIGN AND UNIVERSE MODIFICATIONS

This audit used a cluster sample design that treats batches as clusters that contain from
one to nine international travel vouchers, generally from one to four. Auditors reviewed
all of the international travel vouchers contained in the sample of batches. Seventy
batches were randomly selected for review of the international travel vouchers to
provide a one-sided 95 percent confidence interval with an 8 percent precision, and an
unknown level of compliance on the attributes to be measured. A 50 percent level of
compliance on at least one attribute was assumed for sample size computations.

Upon finding several vouchers with travel dates outside the desired audit scope, the
audit team reviewed the complete universe listing and excluded those travel vouchers
with travel end dates prior to the beginning of FY 1998. The revised audit universe was
540 travel vouchers contained in 211 batches. The corresponding revised sample was,
therefore, 178 vouchers spread among 66 batches.

After review of the sample by the audit team, 35 international travel vouchers were
excluded from the sample because those vouchers were not travel-related. This
necessitated adjustment to the universe using computations for subpopulations
because the database could not be searched to remove other such vouchers from the

6
  The end date is the last travel date that was in the Accounts Payable and Reporting System database at the time of
the computer data run. We note that it is highly probable that some vouchers submitted later will contain travel prior
to June 2, 2000. Any such vouchers are not included in these projections.



                                                          10
Postal Inspection Service International                                       OV-AR-01-001
 Travel and Assignments


universe (i.e., physical review of the source documents for all vouchers would have
been required). To perform the subpopulation calculations, we adapted the formulas
from Chapter 11 (Estimation of Means and Totals Over Subpopulations) of Elementary
Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990 for use with cluster samples.

The team also extracted from the universe those vouchers for which travel starts were
between September 12, 1998 and September 10, 1999, to address FY 1999 questions.
For the FY 1999-only questions, the FY 1999 vouchers already selected in the larger
sample were extracted and projected to the FY 1999 universe. A total of $330,616 was
associated with the FY 1999 universe. All methodologies remained the same as for the
broader scope.

STATISTICAL PROJECTIONS OF THE SAMPLE DATA

METHODOLOGY

The number of vouchers related to international travel was projected using the formulas
for estimation of a population proportion for a cluster sample, as described in Chapter 8
of Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

All sample data were analyzed using subpopulation modifications to the formulas in
Chapter 8 of Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990 for
estimation of a population proportion or a population mean and total for a cluster
sample. The FY 1999 cost projection was computed using direct projection of the
sample data.

Because the subpopulation calculations relate both bounds and point estimate values to
the overall audit universe, we also calculated percentages (for the point estimates only)
for the conditional probabilities desired by the audit team.

RESULTS: FY 1998 – FY 2000

(Audit universe = 540 vouchers in 211 batches with travel occurring between
September 13, 1997 and June 2, 2000).

Vouchers Related to International Travel

Based on a projection of the sample results, we are 95 percent confident that 411 to
457 vouchers were related to international travel (76 percent to 84.6 percent of the audit
universe). The unbiased point estimate is that 434 of the vouchers, or 80.3 percent of
the audit universe, were related to international travel. For the conditional probability
calculations of point estimates only that follow, we used 434 vouchers as the
subpopulation of vouchers that involve international travel.




                                            11
Postal Inspection Service International                                         OV-AR-01-001
 Travel and Assignments



Investigative

Attribute 1: Investigative travel

Based on projection of the sample results, we calculated that 112 to 215 international
travel vouchers involved investigative travel (20.8 percent to 39.9 percent of the audit
universe). The unbiased point estimate is that 164 travel vouchers, or 30.3 percent of
the audit universe, were for investigative travel. The conditional probability calculation
is that 37.8 percent of 434 travel vouchers were for investigative travel. For the
conditional probability calculations, of point estimates only, we used 164 vouchers as
the number of investigative international vouchers that were travel related.

Attribute 2: Investigative travel voucher contained approval

Based on projection of the sample results, we calculated that 37 (based on actuals in
sample) to 227 travel vouchers did not contain approval (6.9 percent to 42.0 percent of
the audit universe). The unbiased point estimate is that 112 investigative international
travel vouchers, or 20.8 percent of the overall audit universe, did not contain approval.
The conditional probability calculation is that 68.3 percent of 164 travel investigative
vouchers did not contain required approval.

Non-investigative

Attribute 1: Non-investigative travel

Based on projection of the sample results, we calculated that 220 to 320 international
travel vouchers involved non-investigative travel vouchers (40.7 percent to 59.3 percent
of the audit universe). The unbiased point estimate is that 270 travel vouchers, or
50.0 percent of the audit universe, were for non-investigative travel. The conditional
probability calculation is that 62.2 percent of 434 travel vouchers were for non-
investigative travel. For the conditional probability calculations of point estimates only,
we used 270 vouchers as the number of non-investigative international vouchers that
were travel related.

Attribute 2: Travel voucher contained all required supporting documentation

Based on projection of the sample results, we calculated that 178 to 326 non-
investigative international travel vouchers did not contain all required supporting
documentation (32.9 percent to 60.4 percent of the audit universe). The unbiased point
estimate is that 252 non-investigative international travel vouchers, or 46.6 percent of
the audit universe, did not contain all required supporting documentation. The
conditional probability calculation is that 93.3 percent of 270 travel non-investigative
vouchers did not contain required supporting documentation.




                                             12
Postal Inspection Service International                                       OV-AR-01-001
 Travel and Assignments



Investigative and Non-investigative

Attribute 1: Travel voucher contained lodging expenses

Based on projection of the sample results, we calculated that 288 to 440 international
travel vouchers contained lodging expenses (53.3 percent to 81.5 percent of the audit
universe). The unbiased point estimate is that 364 of the international travel vouchers,
or 67.4 percent of the audit universe, contained lodging expenses. The conditional
probability calculation is that 83.9 percent of 434 travel vouchers contained lodging
expenses. For the conditional probability calculations of point estimates only, we used
364 vouchers as the number of travel vouchers that contained lodging expenses.

Attribute 2: Travel voucher with lodging expenses contained appropriate lodging
rates

Based on projection of the sample results, we calculated that 227 to 416 travel vouchers
with lodging expenses contained the appropriate lodging rates (42.0 percent to
77.1 percent of the audit universe). The unbiased point estimate is that 322 of the travel
vouchers with lodging expenses, or 59.6 percent of the audit universe, contained the
appropriate lodging rates. The conditional probability calculation is that 88.3 percent of
364 travel vouchers with lodging expenses contained appropriate lodging rates.

Attribute 3: Business-class transportation

Based on projection of the sample results, we calculated that 12 to 49 vouchers
involved business-class transportation (2.2 percent to 9.0 percent of the audit universe).
The unbiased point estimate is that 30 vouchers, or 5.6 percent of the audit universe,
involved business-class transportation. The conditional probability calculation is that
6.9 percent of 434 travel vouchers involved business-class transportation.




                                            13
Postal Inspection Service International                                         OV-AR-01-001
 Travel and Assignments


RESULTS: FY 1999 ONLY

(Audit universe = 178 vouchers in 70 batches with travel start dates between
September 12, 1998 and September 10, 1999).

Attribute 1: FY 1999 vouchers related to international travel

Based on projection of the sample results, we are 95 percent confident that 145 to
156 FY 1999 vouchers were related to international travel (81.3 percent to 87.6 percent
of the audit universe). The unbiased point estimate is that 150 of the FY 1999
vouchers, or 84.4 percent of the audit universe, were related to international travel. For
the conditional probability calculations of point estimates only that follow, we used
150 vouchers as the projected subpopulation of FY 1999 vouchers that involved
international travel.

Attribute 2: FY 1999 investigative travel vouchers

Based on projection of the sample results, we calculated that 39 to 64 FY 1999
international travel vouchers involved investigative travel (21.8 percent to 36.0 percent
of the audit universe). The unbiased point estimate is that 51 of the FY 1999
international travel vouchers, or 28.9 percent of the audit universe, involved
investigative travel. The conditional probability calculation is that 34.0 percent of the
projected 150 travel vouchers in FY 1999 were for investigative travel.

Attribute 3: FY 1999 non-investigative travel vouchers

Based on projection of the sample results, we projected that 85 to 113 FY 1999
international travel vouchers involved non-investigative travel (47.5 percent to
63.6 percent of the audit universe). The unbiased point estimate is that 99 of the
FY 1999 international travel vouchers, or 55.6 percent of the audit universe, involved
non-investigative travel. The conditional probability calculation is that 66.0 percent of
the projected 150 travel vouchers in FY 1999 were for non-investigative travel.

Variable: FY 1999 cost associated with international travel

In the sample, we observed travel voucher costs ranging from $222 to $6,546. We
calculated that the total travel dollar amount for FY 1999 is between $245,316 and
$372,164. The unbiased estimate of the FY 1999 total international travel voucher
amount is $308,740.




                                             14
Postal Inspection Service International                 OV-AR-01-001
 Travel and Assignments


                    APPENDIX B. MANAGEMENT’S COMMENTS




                                          15
